GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




             Audit of PBS’s Tenant
             Improvement Process
      Report Number A050063/P/R/R06005

               March 31, 2006
               Audit of PBS’s Tenant Improvement Process
                  Report Number A050063/P/R/R06005



                         TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                 i
INTRODUCTION                                                     1
    Background                                                   1
    Objective, Scope and Methodology                             2
RESULTS OF AUDIT                                                 4
    Price Reasonableness                                         4
           Limited Evidence of Detailed Cost or Pricing Data,    5
           or Competition for TI Work
           Negotiation and Evaluation of TI Proposals Not        6
           Always Performed
    Financial Management                                         7
           TI Cost Tracking and Reconciliation Not Always        7
           Done
           RWAs Used for Other Than Intended Purposes            8
           Unique Payment Issues                                 8
           Payment Methods Conflict with Good Business           9
           Practices
           OA Tool TI Related Data Often Unavailable            10
    Project Management                                          10
    Scoring Not Completed Per Prescribed Policy                 12
    Conclusion                                                  13
    Recommendations                                             13
    Management Comments                                         14
    Management Controls                                         14
APPENDICES
   Management’s Response to Draft Report                        A-1
   Report Distribution                                          B-1
                   Audit of PBS’s Tenant Improvement Process
                      Report Number A050063/P/R/R06005



EXECUTIVE SUMMARY
Purpose
The audit objective was to assess whether PBS effectively manages the tenant
improvement (TI) build-out process in leased space. This encompassed an
examination of the basis for price reasonableness, as well as a review of project
and financial management.

Background
Tenant improvements (TI) are the finishes and fixtures that raise space from a
base building (or “shell”) to a finished, usable condition. The Public Buildings
Service (PBS) is responsible for managing and overseeing the build-out of tenant
improvements for agency customers. PBS provides customers with a monetary TI
allowance, which the tenant can use to take the space to a “vanilla” office space
and cover the special items necessary to meet the agency’s unique needs.
The funding source for the TI allowance is the lessor in leased space.

PBS acts as the Federal Government’s representative, and negotiates with the
lessor to ensure the best value for the Government. Throughout the build-out, PBS
monitors the progress of the construction. The tenant improvement costs are
recaptured from the tenant either as part of the monthly rental rate or a lump sum
Reimbursable Work Authorization (RWA). In FY Year 2004, PBS billed agency
tenants almost $139 million for tenant improvements in leased space.

Results-in-Brief

Improvements are needed in the oversight of the tenant improvement process in
leased space. PBS’s management of the TI process varied considerably based on
the level of involvement by PBS associates or contractors, as well as the degree of
influence from the tenant agency. The majority of the sampled projects in two of
the three regions lacked strong support for the price reasonableness of the tenant
improvements. In several instances, we could not verify that all TI costs were
captured and passed on to the tenant. Additionally, many times there was limited
documentation illustrating active project management during the build-out process,
especially in one region. As a consequence, PBS may not always have obtained
the best value for the tenant agency’s tenant improvement dollars. Further, some
files did not indicate all applicable procedures for identifying the lease as an
operating or capital lease (scoring) were followed. Adherence to internal PBS
policy, guidance, and training related to the TI process would have prevented
many of the deficiencies identified in our review.

                                         i
Recommendations
We recommend that the Commissioner of the Public Buildings Service take steps
to:

   a. Ensure PBS associates follow established guidance for: (1) assessing cost
      reasonableness; (2) processing RWAs; and (3) scoring leases.

   b. Initiate a standardized methodology for tracking and reconciling TI costs.

   c. Provide guidance and training related to Construction Specifications
      Institute formatted cost proposals.

   d. Ensure that either the responsible PBS associate, or contracted project
      management actively manages TI projects.




                                         ii
                     Audit of PBS’s Tenant Improvement Process
                         Report Number A050063/P/R/R06005



INTRODUCTION
Background

Tenant improvements (TI) are the finishes and fixtures that raise space from a
base building (or “shell”) to a finished, usable condition. As the Federal
Government’s landlord, the Public Buildings Service (PBS) is responsible for
managing and overseeing the build-out of tenant improvements for agency
customers. PBS provides most customers with a monetary TI allowance, which is
composed of: (1) a general component, which takes the space to a “vanilla” office
space; and (2) a customization allowance to cover special items necessary to
customize the space for a particular agency. The general allowance is currently
$31.92 (based on Washington D. C. as the index city) and has been static since
fiscal year (FY) 2000. It is set nationally and adjusted to local construction costs,
which are reviewed annually. Based on a preliminary FY 20051 study performed
by the Office of the Chief Architect, there will be a slight increase (less than $1.00
per square foot) in the TI General Allowance Rate in FY 2006. The
customization allowance is based on a series of customization tiers, which are
equal to one tenth of the value of the general allowance and each agency and
bureau has an assigned tier. The customization allowances are not adjusted since
they are a percentage of the general allowance. The funding source for the TI
allowance is the building owner, which is the lessor in the leased space, and PBS
in Federally owned space. PBS does not use tier allowances for prospectus level
projects, or projects where PBS has developed extensive program requirements.
In these projects, the tenant improvement allowance is based on benchmarks or
cost estimates.

In leased space, which is the focus of this audit, PBS acts as the Federal
Government’s representative, and negotiates with the lessor to ensure the best
value for the Government. For most projects, the tenant improvement process
begins after PBS has negotiated the overall space requirements and rent rate with
the successful lessor. The lessor, working with PBS and the agency tenants,
prepares working/construction drawings for the improvements per Government
requirements. Based on these drawings, the lessor must provide the PBS
Contracting Officer (CO) with a pricing proposal for the tenant improvements. This
proposal can be based on detailed cost or pricing data or evidence of price
competition. After the CO determines price reasonableness, the lessor is given a
notice to proceed with the build-out of the tenant improvements. Throughout the
build-out, PBS monitors the progress of the construction. After the Government

1
  This study will be finalized in August 2006, at which time the TI General Allowance rate will be
revised. Please see Management’s Comments in Appendix A-1 for additional details.

                                                  1
determines that the space is substantially complete, and accepts the space, rent
payments commence.

The tenant improvement costs are recaptured from the tenant either as part of the
monthly rental rate and/or a lump sum Reimbursable Work Authorization (RWA).
There is an upper limit on the amount that can be amortized in the rent, which is
the point at which TI pushes the total rent beyond the top end of the market. In FY
2004, PBS billed agency tenants almost $139 million for tenant improvements in
leased space.

Objective, Scope, and Methodology

The audit objective was to assess whether PBS effectively manages the TI build
out process in leased space, which is the focus of this audit. PBS acts as the
Federal Government’s representative, and negotiates with the lessor to ensure the
best value for the Government. This encompassed an examination of the basis for
price reasonableness, as well as a review of project and financial management.
We performed audit work in the National Office and three Regions: National
Capital (Region 11), Southeast Sunbelt (Region 4), and Mid-Atlantic (Region 3).
We reviewed:

   •   Initial lease offers to determine the extent of competition;
   •   TI price proposals for sufficient detail to assess price reasonableness;
   •   Evidence of PBS review/negotiations related to the TI proposal;
   •   TI and shell definitions in the Solicitation for Offers (SFO);
   •   The extent of tier adjustments;
   •   Methodologies for tracking TI and reconciling costs from the initial SFO
       proposal to the final billed amount;
   •   Payment, scoring, and RWA issues related to TI;
   •   Amounts billed the tenant as compared to the Occupancy Agreements GSA
       has with the tenant;
   •   The OA Tool with regard to ensuring TI related data was accurate,
       complete, and reflected lease information; and,
   •   Evidence of project related correspondence, status meetings, progress
       inspections, GSA/Agency input, punch lists, and open items reconciliation.

To accomplish our objective, we spoke with cognizant Regional and National
Office associates regarding tenant improvements, and methodologies related to
awarding and administering the build-out. We also reviewed applicable PBS
policies and desk guides, Federal Acquisition Regulations (FAR), Office of
Management and Budget (OMB) guidance, as well as stated regional business
practices. Our sample was selected from leases where TI build-out was
completed and space acceptance and billing occurred in fiscal year 2004. A total
of 20 large to small dollar leases were selected: five from the National Capital
Region (NCR), seven from Region 4, and eight from Region 3. The sampled
leases varied greatly in both size and dollar value of the tenant improvement


                                        2
costs. Square footages ranged from roughly 4,900 rentable square feet (RSF) to
127,000 RSF. The sample’s total square footage was about 783,000 RSF.
According to PBS’s database, the TI costs for the leases in our sample ranged
from about $358,000 to $7,000,000, with the sample’s total TI value approximating
$34,000,000, including the TI for four prospectus level projects. For sampled
leases, we reviewed lease and project management files for evidence of
competition/negotiation/evaluation efforts made toward ensuring the Government
received the best value for its tenant improvement dollars. We also assessed
aspects of the TI process related to financial management of build-out costs, as
well as on-site project management.

Fieldwork was conducted between May and October 2005. The audit was
performed in accordance with generally accepted Government auditing standards.




                                        3
                  Audit of PBS’s Tenant Improvement Process
                     Report Number A050063/P/R/R06005



RESULTS OF AUDIT
Improvements are needed in the oversight of the tenant improvement process in
leased space. PBS’s management of the TI process varied considerably based on
the level of involvement by PBS associates or contractors, as well as the degree of
influence from the tenant agency. The majority of the sampled projects in two of
the three regions lacked strong support for price reasonableness. In several
instances, we could not verify that all TI costs were captured and passed on to the
tenant. Additionally, many times there was limited documentation illustrating
active project management during the build-out process, especially in one region.
As a consequence, PBS may not always have obtained the best value for the
tenant agency. Further, some files did not indicate all applicable procedures for
identifying the lease as an operating or capital lease (scoring) were followed.
Adherence with internal PBS policy, guidance, and training related to the TI
process would have prevented many of the deficiencies identified in our review.

PRICE REASONABLENESS

While many projects exhibited only limited documentation to support the basis for
the price reasonableness of the lessor’s TI proposal, there was usually some
evidence to indicate PBS’s efforts to obtain fair and reasonable prices for the
Government. Support in this area was especially strong for the five projects in the
National Capital Region. However, improvements in this area are needed to
provide PBS’s customers with the full benefit of their tenant improvement
allowances.

The FAR requires contracting officers to obtain sufficient information to determine
price reasonableness. PBS leases, which incorporate FAR references, require the
lessor to provide detailed cost or pricing data as a basis for entering into
negotiations to determine a final cost for the tenant improvements. In lieu of cost
or pricing data, the lessor can submit a price based on the results of a competitive
process, if several conditions are met. They include: (1) inviting a minimum of
three qualified contractors to participate; (2) no building shell items are included in
the competitive proposal; and (3) the proposal contains specifics on overhead,
profit, and fees, so that such costs can be negotiated. If the contracting officer
(CO) does not feel that the lessor’s submission provides sufficient information to
determine price reasonableness, the CO can request an Independent Government
Estimate (IGE) as a point of comparison. We reviewed PBS lease and project
management files to evaluate the COs’ basis for their determination that the TI
costs were fair and reasonable. Specifically, we assessed whether the files
contained: (1) cost or pricing data, (2) competition in lieu of cost or pricing data;
(3) Independent Government Estimates; (4) detailed evaluation of proposals; and


                                          4
(5) evidence of negotiation. Five of the 20 files we reviewed did not contain
evidence of any of these. 2 Ten files contained some evidence of competition as a
basis for the proposed TI costs. The remaining five included some combination of
an IGE, record of negotiations, or evaluation of proposed costs.

We noted that a positive contributing factor in the extensive negotiations
evidenced in the NCR files was the involvement of contract Project Managers.
Conversely, the majority of Realty Specialists also acted as Project Managers in
the instances where we found limited evidence of evaluation and negotiation of the
proposed TI costs.

According to PBS, its Leased Cost Relative to Market Performance Measure is
based on the entire lease rent rate paid to the lessor. PBS performance measure
data for FY 2004 notes that the weighted average rental rate for PBS leases in the
three regions we reviewed were from 3.91 to 10.7 percent below market
comparable rates. While we did not perform a detailed analysis of the overall
rental rates negotiated by PBS for the total leased space, we did review the
market analysis information contained in the lease files. Eight of the files in our
sample did not contain such information. Of the twelve which did, one contained a
memorandum requesting permission from the Realty Services Division to award a
lease with a rental rate above market comparable rates, based on the tenants
unique space needs.

      Limited Evidence of Detailed Cost or Pricing Data, or Competition
     for TI Work

Whether providing cost or pricing data or competing the work, the lessor must
provide sufficient proposal detail to allow the contracting officer to perform a
thorough analysis. None of the files for the 20 leases in our sample contained
detailed cost or pricing data. Ten of the 20 had evidence that the lessor submitted
a price based on competitive bids. Two of these ten projects were competed at
the general contractor level3. Eight projects had evidence showing that
competitive bids were sought from the sub-contractors doing the trades work such
as carpentry, plumbing, electrical work, etc. Of these, only one had multiple bids
for all subcontract work. The remaining seven only received multiple bids for a
portion of the subcontract work.



      Negotiation and Evaluation of TI Proposals Not Always
      Performed

2
 While the PBS associates responsible for two of these five stated they made a good faith effort to
obtain fair and reasonable prices, they could not provide documentation to substantiate these
statements.
3
 Documentation of these competitions consisted of memos from the lessor’s representative. No
copies of the actual contractor bids were included in the file.

                                                 5
PBS regional training stresses the importance of reviewing and negotiating the
lessor’s TI proposals. We assessed the files for evidence that the TI proposals in
our sample were evaluated for inclusion of shell items and the price
reasonableness of specific proposed costs. Evidence of PBS’s actions in
negotiating changes to the proposed costs was also examined. Eleven files
contained verification that the lessor’s proposal was evaluated and used as a
basis for negotiations. Six files, predominately in the NCR, contained considerable
documentation supporting the Government’s efforts. These efforts included the
removal of shell items from the lessor’s proposed TI costs. In contrast, nine of the
projects contained minimal evidence of active TI price negotiation or substantive
evaluation of TI proposals prior to project award. This may result from TI
proposals not being presented in sufficient detail to allow effective evaluation and
negotiation. Several of the TI price proposals in our sample were limited to one
page, broad-based breakdowns by general construction element (i.e., plumbing,
electrical, painting, etc.) with no details to be evaluated.

Another mechanism available to the Government to assist in evaluating price
reasonableness is an IGE. Seven of the twenty leases reviewed included IGEs
specific to the TI build-out. Five of the IGEs were associated with projects in NCR.
While three of these IGEs were significantly less than the lessor’s proposals, the
Project Managers stated the information was still useful for negotiations.

Thirteen SFOs (in two of the regions reviewed) required that contractor proposals
be submitted in Construction Specifications Institute (CSI), or compatible format.
TI training in these two regions also emphasized obtaining TI proposals in CSI
format. This layout breaks down construction elements to a point where PBS
associates can readily determine whether shell items are included in TI and
facilitates comparing different offers. Only two projects from our sample actually
received TI proposals with detailed construction element breakouts. When
queried, PBS associates in the regions stressing the use of CSI formatted
proposals stated that they did not understand what actually constitutes CSI format,
the status of its implementation, or the required analysis of the submitted product.
It does not appear that the requirement for CSI formatted proposals is actively
enforced. Additionally, PBS does not have nationwide guidance regarding CSI
requirements or format. If it is PBS’s intent that lease proposals be in CSI format
(as evidenced by the language in the standard SFO), then PBS needs to develop
clear guidance in this area. In a related matter, while SFOs clearly state shell
items are not to be included in the TI costs, some SFOs in our sample did not
differentiate shell and TI in sufficient detail to allow meaningful guidance to the
lessor, although the PBS standard SFO contains detailed language outlining what
is TI versus what is shell. This omission could be especially troublesome to
smaller lessors who may not be as familiar with Government contracting.
PBS should require that proposals meet FAR and SFO requirements and
aggressively negotiate and evaluate the TI proposals to ensure the Government
receives fair and reasonable pricing throughout the TI build-out process.



                                         6
FINANCIAL MANAGEMENT

Financial management of the TI process varied significantly among projects
reviewed. Due to wide variances in cost tracking efforts by PBS associates we
were not always able to determine whether all TI costs were captured and passed
on to the tenant agency. Even in instances where we could verify costs, we
encountered unique payment issues. These included: TI being amortized beyond
the firm term of the lease; lease terms extended without competition to keep rent
rates under market; and lessor’s being paid for tenant improvements months
before the build-out work began. As a result, GSA, in accommodating tenants,
may have taken actions that were in violation of policy. We also encountered
examples where RWA monies were moved among projects without evidence of an
amended RWA. Finally, there were omissions in data related to the OA Tool,
which is used to generate the Occupancy Agreements (OA) for the tenant, and the
tenant’s rent bill.

    TI Cost Tracking and Reconciliation Not Always Done

The TI cost tracking effort varied significantly among GSA associates. We were
able to easily reconcile TI costs for eight of the projects in our sample, primarily
because the responsible PBS associate/contractor employed a rational cost
trackin methodology. Usually this was in the form of project cost summaries, as
well as instructions detailing how the lessor would be compensated for TI costs
(amortized in the rent or by a lump sum payment) in a Supplemental Lease
Agreement (SLA). For a number of projects, however, costs were not tracked at
all or were tracked informally. To illustrate, some tracking was limited to written
notations on various file documents. This made reconciliation difficult, and
sometimes impossible. The CO for three projects where TI costs could not be
reconciled inherited the projects after the original PBS associate left the region.
This new CO was also unable to recreate final TI project costs, or determine
whether all TI costs were passed on to the tenant. Under these circumstances, if
a tenant requested a full accounting of their TI costs, PBS would have difficulty
reconstructing the TI charges.

In another project, the SLA formalizing the final TI amount to be amortized in the
rent showed the rental rate as being adjusted downward $2.39 per usable square
foot in the first five years of the lease because the tenant did not use the entire TI
allowance. While the SLA referenced the total TI allowance it did not clearly state
the actual TI amount to be amortized in the rent. Nor did the SLA break out the
rent rate into its basic components--shell, TI and operating costs. The SLA did
show the reduced rent rate in effect in five years, when the TI amortization period
was over. Subsequently, when PBS prepared the final OAs, and corresponding
rent bills for the tenant, they subtracted the $2.39 from the shell rental rate, not the
TI portion of the rent rate. Potentially, this could result in PBS overcharging the
tenant for unpaid amortized TI if the tenant vacates the space early. Or, if the
tenant stays in the space more than five years, PBS will be under billing the tenant
by charging insufficient rent to cover the lessor’s remaining rent costs.


                                           7
     RWAs Used for Other Than Intended Purposes

As part of our cost reconciliation of the TI projects, we assessed if PBS obtained
the appropriate RWAs for those TI costs that were not amortized in the rent.
According to PBS policy, such RWAs must contain a sufficiently detailed scope of
work, including the location and the type of work to be performed. Our
assessment disclosed RWAs used for projects and purposes other than initially
intended without the requisite authorization. This is counter to RWA National
Policy Guidance, which requires an amended RWA from the tenant agency if
funds are to be used for purposes other than originally intended. Ten RWAs, from
six leases in our sample, intended for a particular scope of work were also used
for purposes/buildings other than those designated on the RWA. For example, a
sample lease was assigned an RWA for $200,388, designated for above standard
alterations. This same RWA had $125,967 obligated against another building. In
another instance, a $540,000 RWA designated for above standard alterations for
a project in West Palm Beach Florida, had almost $105,000 charged against the
RWA for work in a Tallahassee, Florida building. In these, and other instances,
there was no record of an amended RWA in either the lease files or the PBS RWA
databases. In May 2005, PBS issued a Reimbursable Work Authorization
National Policy Document to consolidate PBS’s RWA guidance and to foster
consistency across the regions regarding the RWA program.

   Unique Payment Issues

Our review disclosed some novel payment arrangements related to TI
amortization. One lease showed TI being amortized for a period (17 years),
which significantly exceeds the firm term of the lease (10 years). PBS pricing
policy states the amortization period is usually the firm term of the lease.
According to a PBS associate, this was done at the request of the tenant, who
wanted a lower annual rent. He believes GSA is protected from potential
monetary penalties because of a verbal agreement with the lessor. The
agreement reputedly maintains that if the tenant agency leaves after the ten-year
firm term of the lease, and does not make payment on the outstanding TI, the
lessor will absorb the remaining costs. This agreement is not reflected in any
lease file documents. The written OA and the Rider to the lease both state the
firm term of the lease is 10 years but that the TI amortization term is 17 years.
Neither document explains how remaining TI costs are to be paid if the lease
term is not extended. This lease also has a $225,248 rent credit (for an unpaid
commission on the base building) that is being amortized at a lower interest rate
than the TI over a 25-year period. This rent credit not only exceeds the firm term
of the lease, it also exceeds GSA’s 20-year leasing authority. PBS was flexible
with amortization and lease terms in order to satisfy customer and lessor needs;
however, PBS may have left itself vulnerable to potential financial ramifications.

In another instance, one lease’s unique tenant requirements necessitated TI
costs that were $17.20 per usable square foot more than the tenant’s TI


                                         8
allowance. The lessor agreed to a 5-year lease extension in order to amortize
the entire TI amount over fifteen years versus the originally intended ten. This
lease was extended without competition. The Contracting Officer’s Justification
for Other Than Full and Open Competition notes that to award to other than the
incumbent lessor at the time of the lease extension would result in substantial
costs to the Government. These examples illustrate how higher TI requirements
can impact GSA leasing actions.

    Payment Methods Conflict with Good Business Practices

During the course of this review we found at least two instances where payment
methods conflict with good business practices. In these instances, PBS began
paying the lessors for alteration work far in advance of the work being received.
First, in a succeeding lease, amortized payments to the lessor for TI in the amount
of $312,222 (17 months x $18,366 per month) were made almost a year and a half
before the start of the TI build-out. As a consequence, the lessor was effectively
paid in advance (17 months) for TI alterations. The tenant wanted to be billed
from the lease commencement date in April 2004 to spread the cost of tenant
improvements over a longer timeframe. The TI build-out did not begin until June
of 2005, with an estimated completion date of August 2005. The actual value of
the TI alterations as of July 2005 ($361,897) was only 16 percent of the total TI
allowance ($2,204,242) for which the tenant agency is being billed and the lessor
is being paid. The project’s Realty Specialist did not consider the timing of the TI
payments, and billing for this project unusual, noting that the Government would
receive a rent credit for any unused TI amount. Other PBS associates advised us
that, optimally, the lessor should be paid using incremental rent rates. At the initial
lease commencement, the lessor would be paid the new rent rates, except for the
TI costs. Upon the completion of the TI build-out, a SLA would be prepared to
incorporate the final TI costs into the rent rates.

On another project, the final total TI allowance for the lease included more than
$408,000 that was reserved for future TI for 13,000 square feet on the building’s
third floor. PBS’s tenant required the entire leased space even though the tenant
did not have a specific organization designated for this 13,000 square feet at the
time of lease commencement. These reserved funds were amortized into the final
total TI figure and passed through the rent bills at lease commencement (first rent
bill to tenant and payment to lessor in June 2004). A tenant was eventually found
for the majority of the reserved space. TI for this space was scheduled for
completion in September/October 2005. As a result, at the time of this review, TI
had been prepaid for more than a year while awaiting a prospective tenant. The
Realty Specialist did not view this situation as unusual, explaining that a future
tenant would likely be found, and that a rent credit would be issued if the TI
allowance was not fully spent in the future.

These types of arrangements reduce the lessor’s incentive to negotiate TI prices
and complete the TI build-out in accordance with agreed upon time schedules.
The lessor’s diminished incentive to actively fulfill his contractual obligations may


                                           9
also impact resolution of TI open items. Further, such arrangements necessitate
careful oversight and cost reconciliation, two areas we found lacking in several
projects in our sample.

      OA Tool TI Related Data Often Unavailable

The OA is a record of understanding between GSA and a client agency, including
financial terms and conditions. The OA Tool is a web-based application that
enables users to create OA’s for client agencies, including the assignment of TI
costs. It also provides the capability to select and run reports containing financial
and clause information, and to preview various rate calculations before creating
the OA. During our review of TI related data in the OA Tool, we found that
information was incorrect or unavailable as the result of manually performed
calculations and unpopulated fields.

To illustrate, in one region the Data Accuracy Group manually calculates the TI
rates and inputs the information into the OA Tool. This can lead to math errors
that result in incorrect CBR information being entered into the OA Tool, which
occurred in one of our sample projects. This task could be better, and more
accurately, accomplished through use of the calculation function incorporated
into the OA Tool. Entering required information into appropriate OA Tool Cost
Screens allows accurate calculation of TI costs, and their automatic distribution
to required OA Tool fields.

Additionally, in many instances, fields related to TI expenditures and payment
methods, especially RWA costs, were not populated. Discussions indicate that
PBS associates do not always feel it necessary to capture the entire TI amount in
the OA Tool. Since TI costs are not always documented in official lease files, it
is important that all OA Tool related fields be correctly completed.

PROJECT MANAGEMENT

For six projects, evidence of active project management was generally absent
leading us to question whether PBS aggressively managed the build-out to ensure
that costs were controlled and tenant needs were met.4 Four of the six projects
were located in the same region. In this particular region, the Realty Specialist
usually also served as Project Manager. In the other two regions, where the
majority of projects exhibited evidence of strong project oversight, PBS usually
contracted out the project management function.

Additionally, in all three regions, PBS utilized neither competition nor IGEs for
most change order work, and the files contained minimal evidence of negotiation
or evaluation of change order costs. For some change orders, invoices or quotes

4
 While PBS considers a lessor’s past performance prior to awarding a lease, even projects
awarded to reliable performers require sufficient project management oversight to ensure the
customer expeditiously receives quality tenant improvements.

                                               10
were provided as cost support. For the most part, it appears change order costs
were accepted as proposed.

To assess the extent of project management we reviewed information on status
meetings, inspections, general correspondence, and change order evaluation. We
also discussed projects with the GSA associate or contractor who oversaw the
build-out. For projects with limited project oversight we found the following:

•   In one project, with TI of approximately $1.2 million, there were three Project
    Managers working on the building simultaneously, which caused confusion as
    to orders and record keeping. The lead Project Manager used the lessor’s cost
    tracking spreadsheet as the lease’s official cost tracking mechanism. The
    spreadsheet showed higher costs than we were able to substantiate given the
    lease and project files. PBS began billing the tenant, and paying the lessor
    even though the space was not substantially complete and the tenants had
    limited use of the space. Punchlist items were not resolved until eight months
    after the billing for the entire TI amount had already begun. The tenant agency
    has lodged a complaint against GSA citing poor project management.

•   The lessor began the approximately $368,000 in TI build out without
    submitting a TI proposal and receiving a notice to proceed. TI costs are still
    being negotiated more than a year and a half after the effective date of the
    lease. The effective date of this lease was December 2003, and negotiations
    regarding final TI costs and the amount due lump sum (RWA) from the tenant
    were ongoing as of August 2005.

•   The lessor never provided a TI proposal for the approximately $691,000 in
    costs; instead he informally sent in TI price quotes via email, which did not
    provide sufficient detail for a thorough analysis of the costs. He also began TI
    build out without a Notice to Proceed (NTP) from GSA. Further, TI open items
    were not resolved until several months after the effective date of the lease.
    These files also contained correspondence reflecting tenant dissatisfaction with
    timeliness of open items resolution. The lessor and the Realty Specialist
    disagreed about TI reimbursements due the lessor for months after the
    effective date of the lease.

•   There was little evidence (i.e. correspondence, inspections, change order
    negotiations, status meetings, etc.) of active GSA project management for
    three of the TI projects which had approximate TI costs ranging from $368,000
    to $1.3 million. It appears oversight of the build-out was essentially turned over
    to the lessor. It should be noted, however, that the files contained no indication
    of claims or customer dissatisfaction.

Based on the above, it appears that lack of oversight may have, in some
instances, contributed to the Government not receiving the best value. Claims and
customer dissatisfaction may also have resulted.



                                          11
SCORING NOT COMPLETED PER PRESCRIBED POLICY

Part of GSA’s responsibility when entering into leases for its customers is to
ensure that the leases are appropriately identified as capital or operating leases in
accordance with OMB scoring requirements. In this regard, our review identified
issues related to the OMB scoring process. We found three instances where
leases approaching capital lease status were not rescored even when TI costs
exceeded the estimates in the initial scoring analysis. Budget scoring (scoring) is
the method by which the Federal government distinguishes between capital
expenditures and operating expenditures. Capital expenditures are those
expenditures that are equivalent to the purchase of an asset. If a lease is
designated a capital lease, GSA must allocate budget authority in the initial year of
the lease that equals the present value of the triple net lease payments over the
full term of the lease plus the cost of the associated annual real estate taxes. An
operating lease’s obligations are limited to the lease payments due to the lessor
each year. Since GSA has fiscal year budget limitations on its rental of space
authority, PBS must ensure that lease actions do not cause PBS to exceed this
authority. Of the seven criteria that must be met for a lease to be characterized as
an operating lease, the one posing the biggest challenge to PBS is the
requirement that the present value of the minimum lease payments over the term
of the lease do not exceed 90 percent of the fair market value of the asset at the
inception of the lease.

National PBS guidance suggests that scoring may be required three times in the
lease process: (1) when the space requirement is first identified; (2) at the
solicitation stage and prior to award (using projected TI costs); and (3) if changes
occur in the minimum rent or the discount rate. For our sample it appears most
leases were initially scored, however, there was little indication that they were
rescored in instances where TI costs surpassed the TI costs evaluated as part of
the award process. While most of the leases in our sample were significantly
under the 90 percent referenced above, three leases initially scored in the high
80’s (one at 89.99 percent). There was no indication that these leases were
rescored after TI build-out, even when amortized TI costs increased. Since the
actual TI costs raised the rent rates, these properties could possibly have attained
capital lease status. Additionally, the full service rent rate for the 89.99 percent
lease was calculated incorrectly. The TI for this lease was to be amortized in the
first five years of the lease term. Therefore, the second five years of the lease had
a much lower rental rate. This requires the rental costs to be levelized by a net
present value of the rent stream. In the case in our sample, the person who
prepared the scoring documents simply averaged the two rent rates. Levelizing
the rent, as opposed to simply averaging the rent would have probably resulted in
a higher rent rate, since greater weight is given to the rent rates earlier in the lease
term.

Another lease, with a score of 68.39 percent, did not include all applicable TI rent
in the initial scoring document. The lease contained the option to amortize
additional TI for an increase of $1.59 in the rent rate (which the Government


                                          12
exercised). However, the person who prepared the scoring documents only used
the lower TI amount in the full service rent rate. We were advised by a PBS
Capital Investment Officer, that the preparer should score such leases using the
different possible lease scenarios to determine the impact changes in the lease
rate would have on the scoring ratio. While the Region did not include the option
amount in the initial scoring performed in the early stages of the project, the
Region did include the option amount in a revised scoring performed after tenant
build out.

In many instances, leases may not have been scored at all. The lease files for
eight leases (six in one region) contained no evidence of scoring. A PBS
associate responsible for one of these leases commented he did not realize
scoring was required for “small” leases. Since fiscal year 1999, Regions have
been required to maintain records showing a scoring analysis for every lease.

Given the serious budget and accounting consequences of entering into a capital
lease, it is imperative that PBS associates preparing scoring documents adhere to
all scoring guidelines and appropriately test all scoring scenarios.

CONCLUSION

PBS’s responsibility in obtaining quality space for agency clients extends beyond
obtaining competitively procured leased space. After lease award, PBS
associates must ensure that the space is built out in accordance with the agencies
needs, while pursuing the best value for the Government. PBS has provided
policy, guidance and training to PBS associates to assist in optimally performing
these tasks. Many of the conditions cited in our report, including minimal evidence
of efforts to obtain price reasonableness, limited indications of thorough financial
management, inadequate project management, and insufficient scoring of leases,
could have been avoided by consistent implementation of PBS policy.

RECOMMENDATIONS

We recommend that the Commissioner of the Public Buildings Service take steps
to:

   a) Ensure PBS associates follow established guidance for: (1) assessing cost
      reasonableness; (2) processing RWAs; and (3) scoring leases.

   b) Initiate a standardized methodology for tracking and reconciling TI costs.

   c) Provide guidance and training related to CSI formatted cost proposals.

   d) Ensure that either the responsible PBS associate or contracted project
      management actively manages TI projects.




                                        13
MANAGEMENT COMMENTS

The PBS Commissioner has provided comments to this report, which we have
included in their entirety as Appendix A. Management’s response indicates
concurrence with the report conclusions and recommendations. Changes were
made to this report to incorporate points made in Management’s comments.

MANAGEMENT CONTROLS

As discussed in the Objective, Scope and Methodology section of this report, the
audit focused on aspects of the TI process. Related management control issues
are discussed in the context of the audit findings and addressed by the
recommendations provided above.




                                       14
APPENDICES
APPENDIX A
         Audit of PBS’s Tenant Improvement Process
            Report Number A050063/P/R/R06005

             Management’s Response to Draft Report




                             A-1
APPENDIX A
         Audit of PBS’s Tenant Improvement Process
            Report Number A050063/P/R/R06005

             Management’s Response to Draft Report




                             A-2
APPENDIX B

                         Audit of PBS’s Tenant Improvement Process
                                  Report Number A050063/P/R/R06005

                                              Report Distribution



                                                                                                            Copies

Commissioner, Public Buildings Service (P) ................................................................3
Regional Administrator, Mid-Atlantic Region (3A) ........................................................1
Regional Administrator, Southeast Sunbelt Region (4A) .............................................1
Regional Administrator, National Capital Region (11A) ...............................................1
Regional Inspector General for Auditing (JA-3, JA-4, JA-W) .......................................3
Regional Inspector General for Investigations (JI-3, JI-4, JI-W)...................................3
Office of the Chief Financial Officer (B) .......................................................................2
Assistant Inspector General for Auditing (JA, JAO, JAS).............................................3
Assistant Inspector General for Investigations (JI).......................................................1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA)…………………………1




                                                         B-1
